<html>
<title> - [H.A.S.C. No. 114-80] EFFECTS OF REDUCED INFRASTRUCTURE AND BASE OPERATING SUPPORT INVESTMENTS ON AIR FORCE READINESS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




                                     
 
                         [H.A.S.C. No. 114-80]

      EFFECTS OF REDUCED INFRASTRUCTURE AND BASE OPERATING SUPPORT

                   INVESTMENTS ON AIR FORCE READINESS

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            JANUARY 13, 2016
                            

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 





                               _________ 

                  U.S. GOVERNMENT PUBLISHING OFFICE
                  
 98-889                    WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     
  
  
  



                       SUBCOMMITTEE ON READINESS

                 ROBERT J. WITTMAN, Virginia, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
ELISE M. STEFANIK, New York          JOAQUIN CASTRO, Texas
FRANK A. LoBIONDO, New Jersey        TAMMY DUCKWORTH, Illinois
MIKE ROGERS, Alabama                 SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      TULSI GABBARD, Hawaii
RICHARD B. NUGENT, Florida           BETO O'ROURKE, Texas
BRAD R. WENSTRUP, Ohio               RUBEN GALLEGO, Arizona
SAM GRAVES, Missouri
STEVE RUSSELL, Oklahoma
               Michael Miller, Professional Staff Member
                Brian Garrett, Professional Staff Member
                        Katherine Rember, Clerk
                        
                        
                        
                        
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Readiness............................     1

                               WITNESSES

Green, Maj Gen Timothy S., USAF, Director of Civil Engineers, 
  Deputy Chief of Staff for Logistics, Engineering, and Force 
  Protection, Headquarters, U.S. Air Force; accompanied by Maj 
  Gen Jerry D. Harris, Jr., USAF, Vice Commander, Air Combat 
  Command, Langley Air Force Base, and Brig Gen Christopher P. 
  Azzano, USAF, Commander, 96th Test Wing, Air Force Materiel 
  Command, Eglin Air Force Base..................................     3

                                APPENDIX

Prepared Statements:

    Green, Maj Gen Timothy S.....................................    28
    Wittman, Hon. Robert J.......................................    27

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Scott....................................................    43

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................    51
    Mr. Wittman..................................................    47
    
    
    
     EFFECTS OF REDUCED INFRASTRUCTURE AND BASE OPERATING SUPPORT 
                   INVESTMENTS ON AIR FORCE READINESS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                       Washington, DC, Wednesday, January 13, 2016.
    The subcommittee met, pursuant to call, at 9:03 a.m., in 
room 2212, Rayburn House Office Building, Hon. Robert J. 
Wittman (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wittman. I call to order the House Armed Services 
Committee Subcommittee on Readiness.
    I want to wish everybody a good morning and thank you all 
for being here today for our Readiness hearing on the effects 
of reduced infrastructure and base operating support 
investments on Air Force readiness.
    This is our third hearing on this topic. The Army, the 
Marine Corps, and the Navy have previously testified on this 
topic, and I look forward to hearing the views of the Air Force 
today.
    This morning, we have with us Major General Timothy Green, 
U.S. Air Force, Director of Civil Engineers, Deputy Chief of 
Staff for Logistics, Engineering, and Force Protection, 
Headquarters, U.S. Air Force; Major General Jerry D. Harris, 
U.S. Air Force, Vice Commander, Air Combat Command, Langley Air 
Force Base in the great State of Virginia; Brigadier General 
Christopher Azzano, U.S. Air Force, Commander, 96th Test Wing, 
Air Force Materiel, Eglin Air Force Base, Florida.
    During the last several years, the subcommittee has largely 
focused on operational readiness recovery since the drawdown of 
forces in the Middle East. The Department of Defense has 
implemented plans to correct readiness trends, but those plans 
have assumed risk in infrastructure investments and reduced 
mission support services to redirect funds from installation 
programs to other operational and training budget priorities.
    The purpose of this hearing is to clarify the Air Force's 
choices for infrastructure and installation services, to 
address funding priorities and mitigation strategies, and to 
gather more detail on the current and future impacts of these 
decisions on operations and training.
    As the witnesses testify today, I would ask you to address 
existing risks being taken in installation investments and 
impacts to operations and training. How will the recent 2-year 
budget reshape those risks and impacts? And what will be the 
level of risk and impacts over the next 10 years if budget 
levels remain constant or return to sequestration levels?
    I would now like to turn to our ranking member, Madeleine 
Bordallo, for any remarks that she may have.
    Thank you, Madeleine.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 27.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman, for 
arranging this hearing. And I want to thank our witnesses for 
being here this morning.
    This hearing concludes the first series of hearings we are 
conducting to look into how reduced infrastructure investments 
affect the readiness of our force. However, I am sure that this 
discussion will continue.
    And, to the witnesses, again, thank you for all your 
service and for being here today.
    Over the years, this subcommittee has closely examined 
issues affecting the state of our military's readiness and the 
devastating impacts that sequestration and unpredictable 
funding have had. Although the Air Force is the last service to 
be examined in this series of hearings, it is clear that it is 
far from immune to the fiscal challenges that have required you 
to balance competing requirements with limited funds. And to 
that end, it is in these subcommittee hearings that we are 
attempting to understand the impact that budget decisions 
regarding military infrastructure and installation support are 
having and will have on training and readiness.
    Now, we have heard evidence from several military 
installations that is indicative of adverse impacts to training 
and operations due to degraded infrastructure and installation 
support. If this is the case and there are indications of a 
broader trend, the subcommittee needs to understand what the 
impacts are and what needs to be done to address the situation.
    Since fiscal year 2013, when the Air Force cut facilities 
sustainment funding by nearly $1.2 billion, we have seen FSRM 
[facilities, sustainment, restoration, and modernization] 
funding consistently below the OSD [Office of the Secretary of 
Defense] model of 90 percent. And we will hope to get more 
information on what these figures actually are. As a result of 
significantly degraded infrastructure and as previous witnesses 
have testified, our full-spectrum readiness recovery timelines 
now extend beyond 2020, and even that can be accomplished only 
with stable funding.
    I hope that today our witnesses will provide specific 
examples of how risk in the infrastructure enterprise has 
affected the Air Force readiness or could affect the readiness 
in the future. For example, we need to know if training 
opportunities are being lost, scaled down, deferred, or 
canceled because range safety and training functions are not 
adequately funded. We need to know if training engagements are 
no longer realistic or adequate to meet current operational 
needs because the facilities in which such training is 
conducted are no longer serviceable. Furthermore, we need to 
understand the investments in money and manpower which are lost 
with each affected exercise.
    Without fully equipped, functioning, and well-maintained 
installations, we cannot generate the readiness that is needed. 
And our men and women in uniform, as well as our civilian 
personnel, performing their duties around the country and the 
world deserve that.
    So, again, thank you, Mr. Chairman, for this hearing. This 
concludes the last of the hearings that we will be conducting, 
and I look forward to hearing from our witnesses.
    And I yield back.
    Mr. Wittman. Thank you, Madeleine.
    General Green, I have been told you will be making one 
opening statement on behalf of all the witnesses, so please 
proceed. And as a reminder, your written testimony has already 
been made available to our members and will be part of the 
official record.
    General Green.

STATEMENT OF MAJ GEN TIMOTHY S. GREEN, USAF, DIRECTOR OF CIVIL 
 ENGINEERS, DEPUTY CHIEF OF STAFF FOR LOGISTICS, ENGINEERING, 
AND FORCE PROTECTION, HEADQUARTERS, U.S. AIR FORCE; ACCOMPANIED 
  BY MAJ GEN JERRY D. HARRIS, JR., USAF, VICE COMMANDER, AIR 
     COMBAT COMMAND, LANGLEY AIR FORCE BASE, AND BRIG GEN 
  CHRISTOPHER P. AZZANO, USAF, COMMANDER, 96TH TEST WING, AIR 
          FORCE MATERIEL COMMAND, EGLIN AIR FORCE BASE

    General Green. Thank you, and good morning.
    Mr. Wittman. Good morning.
    General Green. Chairman Wittman, Ranking Member Bordallo, 
distinguished members of the subcommittee, we are honored to 
represent America's airmen as we testify before you today on 
the effects of reduced infrastructure and base operating 
support investments on Air Force readiness.
    For the Air Force, air bases, both enduring and 
expeditionary, serve as foundational platforms from which we 
project power through air, space, and cyberspace. The 
reliability, redundancy, and resiliency of our installation 
infrastructure are keys to enabling global vigilance, global 
reach, and global power and, therefore, are critical to deter 
and defeat those who wish to do us harm.
    Recent Air Force budgets have been rooted in necessity and 
based upon our long-term strategy and vision supporting the Air 
Force's three priorities of taking care of our people, 
balancing today's readiness and tomorrow's modernization, and 
making every dollar count to help ensure that we can field, 
operate, and maintain a credible and affordable future force.
    Ready and resilient installations are an important part of 
the Air Force vision, but it is only one part. The Air Force's 
fiscal year 2016 budget sustains current warfighting efforts 
and places the Air Force on a path toward balancing readiness 
with necessary modernization in order to meet evolving threats. 
It funds vital military construction and aircraft beddown 
projects, addresses facilities sustainment shortfalls, and 
sustains critical base operating services, albeit at increased 
risk.
    We make every dollar count by targeting limited 
installation resources for requirements which have the highest 
consequence on the mission coupled with the highest probability 
of failure.
    Importantly, the Air Force recently stood up the Air Force 
Installation and Mission Support Center to provide an 
enterprise view of our installations, leverage lessons learned 
from across all of our major commands, and constantly strive to 
improve our core business processes in order to make the best 
installation investment decisions possible, balanced against 
maintaining combat effectiveness.
    Finally, a key component to help us close the funding gap 
is to leverage third-party financing where it makes sense. Our 
current third-party financing efforts are focused on areas that 
include housing and utilities privatization, energy savings 
performance contracts, and enhanced-use leases.
    Your Air Force was born of innovation. From the first time 
pioneers of the Army Air Corps found ways to go over and not 
through, the Air Force has embraced new ways of thinking, taken 
prudent risks to accomplish the mission, and encouraged 
innovation to solve hard problems. And we continue to do so 
today as we concentrate on effectively and efficiently using 
limited installation resources to ensure mission success.
    Sir, as you mentioned, joining me today is Major General 
J.D. Harris, the Vice Commander of Air Combat Command, who can 
give you a warfighter's perspective on our infrastructure. 
Notably, he is also the former Wing Commander of the 56th 
Fighter Wing at Luke Air Force Base in Arizona and the 8th 
Fighter Wing at Kunsan Air Force Base in Korea.
    You mentioned Brigadier General Chris Azzano. He is the 
Test Wing Commander at Eglin Air Force Base today. He is also 
the former Air Base Wing Commander at Tinker Air Force Base in 
Oklahoma.
    Thank you for the opportunity to testify before you today 
and for your continued support of our total force airmen and 
their families. We look forward to your questions.
    [The prepared statement of General Green can be found in 
the Appendix on page 28.]
    Mr. Wittman. Thank you, General Green.
    I want to thank General Azzano also for his efforts there 
and want to make sure, too, that we recognize all the great 
efforts that go on at our Air Force installations around the 
world.
    So I want to begin with this just to kind of get it laid 
out; then I want to make sure that we go to other members. As 
we look at the categories of facilities and the types of 
installations that the Air Force has in its inventory, can you 
give us a perspective about which ones are most important in 
raising and sustaining Air Force readiness?
    And I want to begin with General Harris to get his 
perspective as Vice Commander there at ACC [Air Combat Command] 
at Langley.
    Give us your perspective, General Harris, as you look 
through the slate of things that you have to do there at 
Langley--and I have visited there a number of times--looking at 
some of the challenges that are there, whether it is hangars, 
whether it is, you know, the lighting systems on the tarmac 
there. Kind of give us your perspective on how you prioritize. 
Because, obviously, we are in situation where resources 
sometimes are short, so you have to figure out, you know, where 
do you prioritize. And so give us your perspective, as we 
begin, about what categories of facilities and types of 
installation services are most important.
    General Harris. Yes, sir. Thank you for the opportunity.
    When we look at the money that we are given and how we 
prioritize that, we have to look at the entire spectrum, as you 
have rightly pointed out. So it is the facilities and the 
infrastructure from our platforms, being our air bases, that we 
concentrate on when it comes to keeping the installation ready.
    But it is much more than that. We also need the training 
ranges, whether it is an air range over Nevada or Utah or any 
of the many States that we are flying over the top of, to our 
space ranges that are off the coast near Cape Canaveral and 
near Vandenberg. It is very important to us.
    And we have also added in the last decade the cyber 
training areas that we have to work on, which is all 
infrastructure-based.
    Mr. Wittman. Sure.
    General Harris. It is a balance. We have to be ready and 
win today's fight but also modernize, prepare, and be ready in 
the future.
    And we are constantly making tradeoffs as best we can, 
using, as General Green had highlighted, the ``what is probably 
going to fail next,'' the highest probability, and the 
consequences of those failures. So we have some things that are 
just so high in consequences--in our nuclear mission, for 
example--we can't let those fail. So we continue to put 
emphasis there and on our priority missions.
    And that has been our approach, sir. It is: Look at what is 
probably going to fail next. If we had additional resources, we 
would get into more of the maintenance to extend and get the 
preventative work done, but right now we are limited on that.
    Mr. Wittman. Very good. Thank you.
    Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    General Green, we have heard from previous witnesses that 
fiscal constraints have required commanders at the Pentagon and 
in the field to prioritize immediate operational readiness and 
limited critical maintenance needs over less-pressing 
infrastructure investments but that this comes with some degree 
of risk.
    So, in your written testimony, you stated that, and I 
quote, ``We are already seeing the effects of this risk at many 
Air Force installations,'' and that ``failing infrastructure 
has had a direct impact on mission capabilities.''
    Could you elaborate on this comment and provide specific 
examples of these impacts on training and operations and how 
the Air Force is trying to mitigate these impacts?
    General Green. Yes, ma'am. Thank you for the question.
    I think I would like to tell a little bit of a longer story 
for this one that will relate many aspects, from training to 
operations.
    So, as General Harris mentioned, we have forces today that 
operate from the continental United States, so it is more than 
just training for us, although that is an important component.
    When we looked at the nuclear enterprise a few years ago 
and we began to do some analysis and some work in that area, 
led by Secretary James, we found that we had a significant 
underfunding or a significant gap in where our capabilities 
were and infrastructure in that area. And so, as we looked to 
recapitalize the nuclear infrastructure, a part of that was the 
nuclear weapons storage areas, and we found that we needed to 
recapitalize four and also build a new one, so five facilities. 
And that is going to be over a 13-year period and at a cost of 
roughly $1.3 billion.
    So we can't fix everything all at once. We have to look 
forward.
    What has been the impact of that? As we go forward, the 
committee approved and Congress appropriated funds for fiscal 
year 2016 for the weapons storage facility at F.E. Warren, 
which is going to be a pathfinder for us. But when I look at 
Malmstrom Air Force Base, which I just visited last month, the 
missile maintenance facility there was built in 1957. And so 
local engineers began planning for new construction all the way 
back in 1991.
    We are going to be able to do that. It is a $95 million 
MILCON [military construction] that we have currently planned 
for fiscal year 2019. But in the interim, in the last 6 years, 
we have already spent $9 million trying to fix emergency 
problems that we have had and gaps, and we expect to spend 
another $11 million in the next 2 years, just to get to where 
we can have the next MILCON project.
    So what is the impact of that? We have had fire suppression 
systems that have released. We have had water pipes break. We 
have had floor failures. And so, when we do that in a missile 
maintenance facility like that, they are not able to do all the 
training that they are required to do. We suspended training 
and certification, so the certification of nuclear missile 
maintenance technicians, for 6 months while we made a repair 
last year. When those certifications are suspended, fewer 
airmen--you know, as you go out of certification, other airmen 
have to come in and do that maintenance. So other airmen were 
working more shifts, longer hours, while we had this training 
gap.
    That, in turn, kind of gets at some third-order effects. 
Over the past 5 years, they have seen the retention of those 
airmen, those maintainers, drop from 75 percent to 20 percent. 
There is a myriad of reasons. We have a nuclear force 
improvement plan in place to do that. But, certainly, the 
infrastructure and the quality of your life, where you work, is 
a part of that price tag.
    So it is not just the dollars that we invest trying to get 
there. We have difficulty immediately going in and making a 
fix, so the fixes will often take years. In this case, it is 
going to be a 13-year fix, an investment plan. And there will 
be other things that will break and fail in the interim, 
getting to that fix, and we don't need to spend millions of 
dollars.
    So that is kind of how these things can snowball, in 
effect, to go forward.
    Ms. Bordallo. A key element of the 2014 facilities 
sustainment and recapitalization policy memo is the requirement 
that the services fund sustainment programs at 90 percent or 
higher.
    So could you provide information on Air Force budget 
request as well at enacted levels for FSRM funding compared to 
the OSD model since 2013? And what steps is the Air Force 
taking to meet that OSD requirement?
    General Green. Yes, ma'am. We have prioritized within the 
Air Force the sustainment funding and the model funding at a 
high rate. So we have been at 80 percent, on average, over the 
years. I think we got up to 81 percent.
    And we managed that by taking an asset management approach 
to it. So, again, getting back to what General Harris said, 
rather than having a straight investment portfolio, we are 
trying to understand the condition of our facilities and make 
that next investment.
    So we believe 80 percent has allowed us to be successful 
from the sustainment perspective. We recognize 90 percent would 
be desirable, but, again, as we have balanced the risk, we have 
found that to be an acceptable alternative.
    And we have maintained funding in the sustainment of 
facilities at the expense of military construction in previous 
years and at the expense of our restoration and modernization 
accounts, because it is easier to keep good facilities good, to 
take care of the oil changes, to do the things that we need to 
do with them. That is a better investment, we believe, than 
simply trying to fix things on the other end all the time and 
neglecting the day-to-day sustainment required.
    Ms. Bordallo. Thank you, General.
    And I will yield back.
    Mr. Wittman. Thank you, Ms. Bordallo.
    We will now go to Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    And thank you, gentlemen. I have Whiteman Air Force Base in 
my district, so I very much appreciate all the good work that 
the Air Force does and I understand the challenges. Of course, 
we have the nuclear mission there.
    And I appreciate the investments that have been made and 
also your comments about how you have been creative and 
innovative and trying to find ways to make the most with the 
amount of money that you have had.
    I appreciated the example that you gave of some of the 
shortfalls. The purpose of the hearing is to determine if there 
has been a decrease in our readiness due to the lack of 
investment at the installations and how it has affected our 
missions.
    So, I guess, first of all, do you have any other specific 
examples? So as we are advocating for more money for our 
military to help meet some of these shortfalls, do you have 
anything else that you could share besides the fire suppression 
systems that released and some of those things?
    Mr. Green. Yes, ma'am. Since I have talked a lot, I will 
see if General Azzano has anything he would like to add.
    Mrs. Hartzler. Okay. Great.
    General Azzano. Yes, ma'am. Thank you for the question.
    I think probably the best way for me to start is to give a 
little bit of framework for some of the challenges that we have 
been facing. I have been an installation commander now for 2\1/
2\ years, first at Tinker Air Force Base and now at Eglin Air 
Force Base.
    Tinker Air Force Base is a large and diverse installation 
that is absolutely critical to our ability to wield national 
power. There are about 460 buildings there, a workforce of 
26,000 people. There are seven large military units, wing-level 
units. Three of those are flying units, and that includes one 
command and control unit that is Air Force and a nuclear 
command and control unit that is United States Navy.
    Seventy-five percent of the 460 facilities at Tinker are 
more than 40 years old. We broke ground in Tinker back in 1941, 
just before World War II took off.
    Eglin Air Force Base is the largest installation in the 
Department of Defense. There are over 3,200 buildings across 
724 square miles of that installation. Twenty one percent of 
those buildings are greater than 40 years old. There is a $10.8 
billion infrastructure value of Eglin Air Force Base, a 20,000-
strong workforce, 8 wings. And we conduct daily combat 
operations, research and development [R&D], test and training 
out of Eglin Air Force Base. Eglin also--in fact, Eglin is a 
pre-World War II installation.
    Some of the challenges we are seeing as this infrastructure 
ages are probably best relayed through some stories of things 
that we have seen over the last few years that have gone wrong 
with our installations.
    In early 2014, a fire suppression system at an Eglin hangar 
inadvertently activated, dumping 17 feet of foam across a 
90,000-square-foot hangar. Five aircraft were impacted, and the 
hangar was unusable for 83 days as a result of cleanup and an 
investigation that followed.
    The cause of this inadvertent activation was an 
insufficient heating in the hangar in cold temperatures. Now, 
as a workaround, we must drain the foam suppression system 
anytime that there are forecasted to be very cold temperatures 
down at Eglin, which, fortunately, is not that often, although 
we had that happen again this week.
    By draining that system, it reduces our ability to protect 
the assets inside the hangar. We still have a water system that 
can be used in the event of a fire, but the foam suppression 
system is much more effective.
    In the year that that system was built, we had a choice. We 
could afford to include, to install a fire suppression system 
that included foam, or we could afford to upgrade the heating 
system for the hangar. We could not afford to do both. So we 
chose the item that we thought was going to have greater 
payback over the long term, which was the suppression system.
    Over at Tinker Air Force Base, a little over a year ago, in 
the middle of the night, one of the electrical substations that 
powers the largest Air Force depot facility achieved meltdown 
temperatures in the middle of the night. And I am told that you 
could see the meltdown from space, it was so bright.
    As a result, we lost power to the largest building, 
Building 3001, at Tinker Air Force Base and many other 
buildings along the east side of the complex. That resulted in 
the loss of three shifts of work at the depot complex, which 
cost the American taxpayer $1 million in productivity for those 
three shifts. And it also resulted in at least a day slip in 
the depot-level maintenance and repair on dozens of aircraft 
that were residing in the building at that time.
    The total cost to bring in and replace the new substation 
was about $6 million. And the interesting side story to that, 
we had a contractor whose expertise is in power generation come 
in and take a look and do an assessment of the substation, and 
the parts of the substation were so old that the contractor 
didn't even recognize them. So here is somebody whose expertise 
is in power generation; they did not recognize some of the 
infrastructure that we were using to support that very critical 
facility.
    Another example from Tinker Air Force Base. We had a water 
main break under a B-52 that was in depot-level maintenance and 
repair. It lifted a large concrete slab that came very close to 
the airplane. It did not damage the airplane, but it could 
have. And, certainly, if there had been workers there at the 
time, it could have resulted in injury to the workers.
    When the civil engineers at Tinker were trying to turn off 
the water supply and then troubleshoot, it became clear that 
the systems, the water systems, underneath the hangars were so 
old that they didn't even have schematics to determine where 
the pipes were running.
    So those are three stories about some of the challenges we 
are facing with World War II-era infrastructure. I have others 
also.
    Mrs. Hartzler. Thank you very much.
    Mr. Wittman. Thank you, Mrs. Hartzler.
    We will now go to Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you to the witnesses.
    General, checking back home with the Air Guard in 
Connecticut, obviously, you know, at your level and at the 
frontline level, everyone has been struggling with the budget 
instability over the last 2 or 3 years. The feedback we were 
getting is that the sustainment/repair/modernization funds was 
kind of a place that they could sort of mitigate some of the 
sequestration challenges that are out there.
    And I think that is kind of what you were referring to 
earlier. I just want to make sure--and maybe not. But maybe you 
could just sort of help me sort of understand whether that is 
still going to be a strategy that folks are going to have to 
continue to look towards, or, you know, is the omnibus going to 
create, hopefully, maybe a different type of stability in terms 
of going forward.
    General Green. Yes, sir. So thanks for the question.
    When I was alluding to how we use sustainment dollars, we 
essentially have three accounts or three sets of funds that we 
try to focus our efforts on: military construction, which are 
line-item appropriated; FSRM--and we have restoration and 
modernization, which we think of as repair. It is about putting 
the new tow bar on your vehicle, it is about improving it and 
taking care of things. And then we have sustainment dollars, 
which are more your oil changes and taking care of things 
consistently.
    So we have chosen to take less risk in sustainment over 
time and more risk in military construction and restoration and 
modernization.
    But we have not migrated dollars out of the FSRM account to 
support other activities within the Air Force. We still use the 
dollars for which they were appropriated by Congress. We treat 
that as a floor. And we make sure that at the end of the fiscal 
year we have used every dollar as you intended with the 
appropriation for our sustainment and modernization.
    Mr. Courtney. So the ink is barely dry on the omnibus that 
just passed. I mean, clearly, that was preferable to having a 
CR [continuing resolution] for 2016. And, hopefully, with the 
lifting of the caps in the budget resolution, the 2-year budget 
resolution, can you just sort of share with us whether or not--
again, the omnibus and, you know, the hoped-for relief from the 
sequestration, you know, what does that mean in terms of your 
job compared to about a year or so ago?
    General Green. Well, it really means the ability to plan, 
which is very, very important for us. As we try to balance the 
risk, we try to build a good plan within the budget that we 
expect to be able to have, balance the risk across it.
    And then the things that emerge late, such as an incident 
when the--if you think about the Tinker hangar, when the water 
came up through there--we will go ahead and take care of those, 
and it just takes money away from whatever we had planned.
    But if we don't have a number with which we can plan 
against, then everything we are doing, work and rework and 
rework, trying to adjust ourselves to the number. So the 
omnibus is very important for us to be able to plan. It doesn't 
always necessarily give us additional funding, but the planning 
is significant for us.
    Mr. Courtney. And if we had had a CR for the rest of the 
year, I mean, using, I guess, 2015 as the top line, what would 
have been the--would that have aggravated your situation, as 
opposed to passing an omnibus?
    General Green. So if we had multiple continuing 
resolutions, it gives us challenges, where we have to put in 
place bridge contracts. We have obligation timelines. We have 
to obligate 80 percent of our funds by a certain point in the 
year, and the money comes late. So I would say the omnibus 
certainly helps us avoid those kinds of activities.
    For example, we may have to not award a contract for the 
full period of the year, if we were going to work something for 
an entire year, because we didn't have the funding for the 
year. So our contracting officers have to go in and adjust the 
performance period, have a set of negotiations. And then, when 
we get the next CR, we have to go through and have the same 
thing. We negotiate with a contractor for the next performance 
period.
    So continuing resolutions provide a lot of difficulty for 
us across the entire portfolio. It can be a range contract 
where we are doing range support. It is not just 
infrastructure. It is across every area where we have 
contracting and we have dollars.
    So we move the dollars around to account for funding, say, 
for the first quarter or the first 2 months, and then we have 
the same challenge again the next 2 months. So it is a lot of 
additional work.
    General Harris. Sir, if you didn't mind, I would add to 
that.
    Part of the time, if it delays for a continuing resolution, 
then we end up with a period of time where some of the workers 
we could be using are laid idle while they are waiting on that 
information.
    And at a place such as Guam, where we have a fairly small 
population, if they are all working hard as they can for 6 
months but then we have to wait again for this 1 October, this 
new fiscal year, we can actually reduce the time that we can 
get the work done that we are working on.
    Mr. Courtney. Well, thank you. That is a very helpful 
perspective, that, you know, CR versus omnibus, it is not just 
a sort of parlor game in Washington; it has real-life 
consequences.
    Thank you, Mr. Chairman.
    General Azzano. Sir, would it be possible to add one other 
thought to that?
    Mr. Wittman. Sure. Go ahead.
    General Azzano. So we have a very busy and relatively 
limited engineering staff at each of our large installations, 
and the challenge is to divide their time between designing and 
fixing issues as they arise, real-time, or planning for 
projects that have programmed funding. And with the uncertainty 
of funding that is brought about by the continuing resolution, 
the challenge for me is, where do I allocate that manpower.
    So if at the start of the year there is a lot of 
uncertainty, and then I have to have 80 percent of my funds 
obligated such that I have 20 percent at the end of the year to 
expend, what we find frequently is that prioritizing manpower 
on the most important projects becomes a challenge, because we 
often don't know whether we are going to get the funding or 
when we will get the funding. And what we would hate to have 
happen is projects that are the highest priority that don't get 
funded because they don't have the adequate design work in 
time.
    Mr. Courtney. Thank you, sir.
    Mr. Wittman. Very good. Thank you, Mr. Courtney.
    Mr. Gibson.
    Mr. Gibson. Thanks, Mr. Chairman.
    I appreciate the witnesses. Thank you for your leadership, 
for your sacrifices, and for those of your family, as well.
    I want to pick up on something that Representative Bordallo 
mentioned in her opening remarks. And, particularly, I want to 
focus in on joint readiness, with the emphasis on the Global 
Response Force [GRF]. You know, to me, I think it is really 
important that we fully restore this capability. I think it 
plays a key role in peace through strength. And, obviously, the 
Air Force is a major player in this--electronic warfare, 
fighters, bombers, air mobility, including delivering airborne 
forces, and then any kind of resupply operation.
    And so, as we look at base operations and even some impacts 
on SRM [sustainment, restoration, and maintenance] and MILCON, 
please assess for me where you think the reduction in funding 
has impacted your ability to support joint readiness, including 
the Global Response Force. If you need to do that for the 
record, that is fine too.
    But then I am interested not only in that but also your 
assessment on where we are today, given the realities of where 
we are today, your assessment, and your ability to support 
joint training and joint operations.
    General Harris. Well, sir, thank you for that opportunity 
to talk about some of the best units that we have in our 
military, such as the 82nd, and what they do for that airborne 
force.
    We have made choices as we are getting smaller as an Air 
Force and pulling back or consolidating some of our forces. You 
see that in Europe. We are also doing that in the continental 
U.S.--for example, at Pope.
    One of the things that have we made our commitment to is 
that we will not step away from the joint training, and that is 
one of our highest priorities. And as our Secretary continues 
to say, it is the airmen first. They are the ones who are 
getting the work done, with everything that we are putting on 
their shoulders.
    Their approach to it is to make sure that, if the unit that 
is local or has just changed can't support it, then, as you see 
at Pope, C-17s fly in and do much of that heavy lift from that 
joint readiness and training, just the way we would do it in 
combat. So we do share across, and we have a fantastic 
organization in our airlift community that takes care of that.
    Part of that joint readiness is to make sure that we are 
meeting that mission team. So, for example, when we put in a 
major repair to a runway like at Andrews, because we are 
reduced on the amount of money that we have, we will probably 
fix the runway and then any other emergency items that pop up, 
but we won't do everything that probably should be done on that 
routine maintenance, such as looking at the airfield drainage. 
And we have several of our runways that have truly been flooded 
or have additional damage to them because we didn't have the 
funds to get to fixing things that were built in the 1950s or 
designed in the 1950s and installed at that time that may or 
may not be suitable for the conditions that we see now.
    Mr. Gibson. Thank you for that, General.
    The next area has to do with impacts on retention. I 
appreciate the quality of our Air Force. That is certainly 
something we share, to make sure that that is sustained going 
forward.
    So I am interested in your assessments on impacts on 
housing, child development, MWR [Morale, Welfare, and 
Recreation], and the panoply of support network that we have 
and whether or not you have any data that the impacts on the 
budget has impacted retention.
    General Green. Thank you. I will start, and then I will 
probably hand it to Chris to see if he has anything to add from 
the installation perspective.
    But I think how we manage the quality of life in the force 
is much like we described earlier with the Global Response 
Force. We focus our resources on those priorities that are most 
important to the mission and also then to our airmen.
    And so, if you think from a services perspective, you 
mention child development centers and MWR facilities. We are 
investing in those things that we believe are most important 
more than those that are less important.
    So, for example, over the past few years, with our child 
development centers, working with the Family Child Care and 
School Age programs and the off-base partners, we have 
increased the number and the availability of child care for our 
men and women and our airmen by 41 percent from fiscal year 
2010 to 2014. We have expanded operating hours through the 
expanded child-care program over the same time period.
    If we look at dining facilities, we have expanded the 
operations through our what we call FTI, Food Transformation 
Initiative, where we have partnered--and if you think of a 
traditional dining hall at an installation, that is operated 
about 56 hours per week. But by linking them together with 
Transformation and having a vendor come in and help us, they 
not only operate the dining hall but they may operate the 
bowling alley, they may operate the club. And then our airmen, 
who used to only be able to take their meal card to that dining 
hall, can go to any of those facilities. And so their hours of 
operation greatly expand.
    And then the last one there is fitness centers. We believe 
that is core.
    And so we focus on the core. We have maintained the 
services in those core areas to a higher degree, but we have 
also closed 40 MWR facilities in fiscal year 2014. And so there 
are activities that we have sacrificed in order to ensure that 
we preserve those things that are most important.
    And that gets to the quality of life. Yes, when we make 
those other sacrifices and those changes, it affects our 
quality of life, but, again, we are focused on those things 
that provide the greatest return for our airmen on their 
quality of life overall.
    So it is on the margins. I don't think I have data today 
that would suggest what quality-of-life factors are driving a 
retention issue, because I think we are doing a pretty good job 
of trying to focus on those areas that are the greatest impact.
    General Azzano.
    General Azzano. Congressman Gibson, you have hit on a very 
important question there, and I appreciate that.
    We are constantly struggling with the balance between 
executing the mission, between joint readiness, and quality of 
life for our airmen and our soldiers and our sailors and their 
families.
    I have a list, an integrated priority list, that 
encompasses the inputs of all the commanders on Eglin Air Force 
Base. And there are dozens of items that need work, that need 
funding, that are either related to infrastructure, to test and 
training, to research and development, to technology 
development, or to quality-of-life issues. And, as you might 
imagine, when we go through and we prioritize and the cut line 
for those items ends up being much higher on the list than we 
would like, frequently the quality-of-life items do not make 
the cut.
    Some examples of that are we have needed a new fitness 
center at Eglin Air Force Base for a number of years. Tinker is 
the same way. And that has gone unfunded. A way that we have 
helped mitigate that is by going to 24/7 access, where with the 
proper authentication you can actually enter the building and 
make use of the fitness centers.
    The challenge there, of course, is upkeep of the facility, 
and there is some risk to people using the facilities in the 
middle of the night. If they have an issue, then there may not 
be anybody there to help them. We try to work around that with 
proper training and instruction, and so far we have been very 
successful.
    Other quality-of-life issues: HVAC [heating, ventilation, 
and air conditioning] systems that are old. Very humid 
environment in Florida. Lots of people in the middle of the 
summer working in very warm and damp buildings, despite our 
best efforts.
    We actually closed a dormitory a number of years ago, 280 
people, because of an HVAC system that was so old we couldn't 
find parts for it. There was mold growing in the facility. And, 
for a time, we had asked the airmen that were living there to 
use a diluted bleach solution and wipe down their walls 
regularly to prevent the mold from growing.
    So absolutely unacceptable conditions, and we ended up 
closing that. But what that meant was that 288 airmen had to 
then go and live on the economy. These are 288 airmen that were 
given to us by their mothers and fathers to care for them, to 
train them, to help them with those first few years of 
transition into the military life, which can be difficult for 
many people, and we were unable to fulfill that. It also cost 
us extra money because we had to issue BAH [Base Allowance for 
Housing] to the airmen that normally would have lived in the 
dorms. So by no means a situation we want to be in.
    The replacement dormitory for that is scheduled to be 
funded sometime in the next 5 years. So a high-priority item 
that has still not made the cut list over the last few years.
    We need a new training and education center.
    And believe it or not, we have even prioritized to the 
point where roof repairs, roof leaks, are either structural and 
could cause potential damage to equipment and cause a threat to 
people who are working in the facilities or they are cosmetic. 
So there are roof leaks that we are aware of that we have not 
fixed. And to be working in an environment where you have to 
put buckets under the drips certainly is not helping retention.
    Mr. Gibson. And I know my time has expired here.
    Gentlemen, thank you for that testimony. I have listened 
and taken good notes here. I know it is not easy. You are 
balancing risk, and you are making hard decisions. And I 
appreciate this testimony here today, which will, I think, be 
helpful to us.
    Mr. Chairman, I yield back.
    Mr. Wittman. Sure. Thank you, Mr. Gibson.
    I want to remind our witnesses, in fairness to all of our 
members here that would like to ask questions, if you will keep 
up with the clock, and when it turns red, if you will look for 
the closest opportunity to wrap up your questions.
    We will provide a second opportunity for our panelists here 
to ask questions, so you will be able to get back to that, so 
don't be worried about missing that opportunity.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    And, gentlemen, thank you for being here.
    I represent Robins Air Force Base and Moody Air Force Base 
in Georgia. And I have several friends who are contractors, and 
one of the things that I hope we are able to deal with is this 
issue of forcing things to the lowest bid short-term and that 
we will soon find a way to give you a way to accept the bid 
that is the best value long-term instead of what meets a short-
term parameter.
    But I want to speak to you specifically about the Air 
Force, in 2014, said they would shift away from the 
longstanding model of decentralized control and execution for 
providing installation support and that you were going to stand 
up a new command. What progress has been made in standing up 
the Installation and Mission Support Center?
    General Green. Yes, sir. Thank you.
    Great progress. We already have--it is up, and it is 
operational. We call it the initial operation capability. And 
so they have gone through and they have taken responsibility 
for prioritizing our projects, for example, our programs. They 
are running all of our service programs for the Air Force. The 
engineering programs are the same way.
    And so they are already learning lessons from across the 
enterprise and able to apply that, to the benefit of the entire 
Air Force. So I think they are well on their way and they are 
making good decisions today. They are setting their processes, 
but I am very comfortable in saying it is accomplishing already 
the things that we intended for it to do.
    Mr. Scott. So the goal was a reduction in duplication and 
efficiencies. Are you seeing any cost savings yet from the new 
system?
    General Green. So I don't know that we can say there is 
cost savings at the installation impacts, because those are 
budget-driven decisions. So I would say that the impact, in 
that case, is really about the effectiveness or the 
appropriateness of the decisions that they are making within 
the construct of the AFIMSC [Air Force Installation and Mission 
Support Center].
    We certainly have significantly reduced the number of 
personnel who are performing this work across the Air Force, 
and so roughly about 920 folks fewer are doing that work today 
than they were previously. And, again, it gets to that 
decentralized versus centralized look that we are able to make 
now with technology and the tools that we have in place today 
that we didn't before.
    Mr. Scott. Okay.
    So with regard to working capital fund organizations like 
the depots, do you have enough flexibility in the sustainment 
and restoration and modernization accounts and the base 
operations for programs, or is there a need for more 
flexibility there?
    General Green. I believe we have enough flexibility today. 
I have not gone back and looked at the depot funding 
specifically in light of your question, so I can do that. But, 
today, nobody has come to suggest to us, at my level at least, 
that they need more flexibility. We try to make that balance. 
So I will check on that.
    [The information referred to can be found in the Appendix 
on page 43.]
    Mr. Scott. And the conditions at the depots--General, you 
spoke a lot about the conditions at one of the depots. The best 
depot in the United States is Robins. Could you just speak to 
what efforts are being made to improve the facilities at the 
depots across the country?
    General Azzano. Yes, sir. I am happy to give you my 
perspective on that.
    Obviously, the best thing to do for our depots would be to 
completely recapitalize the infrastructure. And when we have a 
new platform, like the KC-46, that requires a significant 
amount of space and manpower to sustain that weapons system 
over its lifecycle, that is exactly what we are doing. We are 
devoting MILCON funds to that program to make that happen.
    For our aging fleet, for our B-1s, B-52s, and some of the 
other older aircraft, F-15s, those are being maintained, 
sustained, many of them, in World War II-era facilities. Those 
facilities are large. The recapitalization bill for something 
like that would be tremendous.
    So what we find ourselves frequently doing is doing the 
best preventive maintenance we can and then waiting for things 
to break. And when I say ``waiting,'' I mean, expecting that 
they are going to break while we are busy doing preventive 
maintenance and working some of the sustainment projects that 
have actually been funded. We try to get ahead in the design 
and the management of some of our sustainment projects in the 
event there is fallout money.
    So I think we are doing a good job there, but the long-term 
challenge is having that 911 capability, if you will--we had a 
water main break, we had a roof cave in--that we can address 
real-time, and at the same time looking ahead to very large and 
complicated facilities and saying, where do we look next? What 
is the next most important project? Where will we spend the 
next dollar that we have? And we have a fairly robust priority 
process that we go through to achieve that.
    Mr. Scott. Well, gentlemen, thank you for your service.
    Mr. Wittman. Thank you, Mr. Scott.
    General Azzano, I want to go back to the response you gave 
a couple of questions ago and ask, from your perspective--I 
understand that at the corporate Air Force level there are 
directives on infrastructure and on installation support 
decisions. And we know that those filter down and then, from 
that standpoint, there are decisions that are made at the base 
level. And you talked about how those decisions are made, where 
the shortfalls are, and how you try to cobble together both 
resources and decisions to do that.
    Give me your perspective on how it affects the mission 
support and operations there at Eglin. And then if you can 
provide some additional examples. You started on some, with the 
barracks there, with some of the older hangars, with water 
mains, those kinds of things. But give us your perspective on 
how those facility problems that may not be in the direct 
funding stream or may only get funded if there is an emergency 
affect overall operational readiness.
    Because what you are doing is listing them. When you are 
saying, these things are tiered and we are going to do those in 
order, a number of those at the bottom of the list are not 
going to be funded anytime soon. The other way they jump to the 
top of the list is for there to be an emergency. Obviously, at 
some point, as that list grows, the impact on readiness 
continues to grow.
    Give me your perspective. And you laid out some examples, 
but I would like to hear maybe a few more that are down on the 
list that may not even come to fruition because they don't 
reach an emergency situation. But give us your perspective 
about how that affects operational readiness.
    General Azzano. Chairman Wittman, thank you for the 
question. You really hit on one of my key day-to-day challenges 
and concerns, and that is that at some point the aging 
infrastructure will begin to fail at a rate that, whereas today 
I can handle the emergency requirements that support day-to-day 
mission operations, they are going to fail to a rate at some 
point where I will no longer be able to do that.
    My sense as an installation commander now for 2\1/2\ years 
is we are not there yet, but I would be--I guess I am unwilling 
to hazard a guess at this point, but we are not that far off. 
And that is based on, I guess, a gut feeling of watching things 
over the last 2 years at a very close perspective of the risk 
that we are taking in some key areas.
    There are a number of base operations support examples of 
things that fell below the cut line. One of them, a number of 
years ago we canceled our grounds maintenance contract at Eglin 
Air Force Base. And we canceled that because the $3 million 
contract, we needed it for a higher priority, to sustain a 
facility that was in bad need of repairs.
    As a result, to offset that, we went and got some help from 
the local Federal penitentiary, so we have inmates come in and 
do the grounds work now. It is not the same quality as the 
contract would have been. They require us to provide 
supervision. These are the same people that we have in very 
limited numbers that we could be applying to other tasks. And 
so it has taken its toll on us.
    Another example that concerns me that really illustrates 
the balance between risk that we take in each of our 
investments is force protection. So I have a very large 
installation, and there are a lot of ways to gain access to 
that installation. In the aftermath of Chattanooga and the 
events in Paris, we are obviously concerned about anti-
terrorism and our ability to protect the people that live and 
work there.
    We have a very long list of items that could benefit from 
focused anti-terrorism funding. And as a result, I, as the 
installation commander, am taking risk. What is more important 
today; is it more important to repair that airfield or more 
important to install a serpentine entryway into one of my 
gates? So those are the kinds of questions that I am grappling 
with.
    Another key investment area that I hadn't mentioned yet is 
information technology infrastructure. So we have a lot of 
aging network architecture. We have a lot of old copper wire 
for our communication systems. In 2017, the existing 
communication infrastructure will reach its useful life. The 
plan is for us to transition over to Voice over Internet 
Protocol. We have not achieved the level of investment that we 
need yet to make that happen by 2017, by the time it ages out. 
So ongoing challenges there.
    Mr. Wittman. Gotcha. Very good. Thanks for that 
perspective.
    General Green, I want to maybe take a step up, as far as 
from the base level to the overall Air Force perspective, on 
where we are in restoring full-spectrum readiness and the 
association that it has with infrastructure and installations 
and facilities support.
    Give me your perspective based on where we are right now. 
We now have the Bipartisan Budget Agreement of 2015, which lays 
out for both 2015 and 2016 the top-line spending elements, so 
there is some certainty there about what that number is. Give 
me your thoughts about how that affects the rate of ascendence 
in getting back to full-spectrum readiness.
    So if you can give us, you know, a date about when you 
expect to get it back to full-spectrum readiness, the impact 
that this new budget agreement has on being able to put in 
place or either keep status quo, accelerate, or possibly in 
some instances maybe even losing ground on your infrastructure 
projects and your facilities and installation support as it 
relates to the effort to establish full-spectrum readiness, or 
re-establish it.
    General Green. Thank you.
    So, from a facility perspective, what we believe is that 
the current agreement and certainly the fiscal year 2016 budget 
has really arrested the decline that we were experiencing. The 
challenge will be sustained investment over time. As I alluded 
to earlier, we are not going to get well in a year or in 2 
years. We can't afford it, we couldn't execute it. And so it is 
about an ability to project sustained investment over a longer 
period of time.
    For us on the installation side of the business, to be 
comfortable that we are delivering the capabilities that we 
need so that we are not waiting for things to break 
unexpectedly, we believe we need about a consistent investment 
that would equal to about 2 percent of our plant replacement 
value. So if the plant replacement is $100 million, then about 
2 percent of that a year should go into our FSRM accounts, our 
maintenance and repair, and our MILCON and share that.
    And we think a sustained investment like that over a period 
of years could help put us back on our feet so that we weren't 
worried about the unexpected outages and the breakages that we 
have heard described today.
    So that is what it would take for us. A 2-year budget deal 
gives me some hope, but I would say right now we are just 
arresting--I do not see us in an ascent phase and improving 
ourselves from an infrastructure perspective.
    And, again, as you noted, the infrastructure is only one 
aspect of our readiness. And so the Air Force certainly trains 
against all components of readiness to deliver capability.
    And, General Harris, I don't know if you want to address 
any of those others or----
    Mr. Wittman. General Harris, I will ask you, too, for you 
to share that perspective, but let me ask, too, not just the 2-
year budget perspective and the risks associated with what you 
are going through to re-establish readiness, but give us a 
longer-term perspective too, because after 2016 we are back 
into the realm of sequester.
    So give me your perspective not only of where we are with 
the risks that you will assume under a 2-year budget plan that 
is known, but, if you would, if you will give us some 
conjecture about two scenarios past that: level funding or back 
to sequester.
    General Harris. Well, thank you, sir, for the opportunity 
to respond to that.
    Readiness is complicated, and we use several different 
levers to make sure that we have the right balance of 
readiness. Because if we fully funded the flying hours 
associated with that, that would come out of our other 
modernization or installation accounts. So we are reducing each 
one of those to try and maximize that capability so that we get 
at what the Secretary and the Chief--is their second priority, 
is balancing readiness now versus modernization in the future.
    Having that steady plan allows our engineers and our teams 
to go out and budget everything that we can for the next year 
and a half, 2 years, at the levels that we have and draw that 
cut line, having been in that Air Force cooperation that drew 
that. We took from the installation commanders; we prioritized 
that. We are now able to do that with one voice through IMSC, 
discussed earlier. And that is a benefit for us because then it 
looks across all portfolios, not just mine and the combat, but 
it covers transportation, the cyber, the space, all of the 
domains that we work in. And that is a huge help for us that 
will come to fruition over the next several years.
    Having that, we draw that line, but then the emergencies 
that you hear about--the flooding at Laughlin that closes the 
base for 3 days--there are second- and third-order effects for 
that, but then we have to unfund something that was above the 
line and go put the money in that position. So that always 
changes our plan, but being able to plan at least gives us a 
starting point and allows us to talk about the priorities that 
are important for that readiness.
    Once we have those portions of the conditions set, we also 
need to slow down on our deployment and our combat operations 
tempo. And right now the Air Force, we are not being asked 
today do less; we are being asked to go more, to push harder, 
to make sure that our enemy knows that not only are they not 
able to continue attacking but their time on this Earth is 
going to be reduced with the way we are taking the fight to 
them. That has impacts, then, on our weapons systems 
sustainment and our ability to acquire the munitions for that. 
Again, that is all balanced on that funding.
    But once the conditions are set, deployment ratio, probably 
about a 1-to-4 OPSTEMPO [operations tempo], we have the ranges, 
the infrastructure that we need, with the threats, the 
emitters. We have the talent pool in our maintenance to turn 
and make sure that the equipment is ready to go. Then we start 
building that 8- to 10-year readiness that is going to take us 
a long time, that 8 to 10 years.
    If any one of those aren't met, we are still holding that 8 
to 10 years further down the road, so instead of being ready by 
2023, if it is a delay of another year or two or, as you say, 
sir, if we go back to sequestration after the 2-year budget 
deal that we have, it will further delay that readiness 
picture.
    Mr. Wittman. You are on track to re-establish full-spectrum 
readiness in 2023. Does the Bipartisan Budget Agreement of 2015 
make any impact on that? Does it move that number to the left? 
Or does it just help you sustain the course to 2023?
    General Harris. I would say, sir, at the PB-level 
[President's budget] funding, 2023 is within sight. But, again, 
we are not being asked to do less. So, right now, if you were 
to look at our warfighters and the installations, we still have 
so many airmen downrange; they are not available for the 
training, and that is a part of that full-spectrum readiness.
    So we are on track, but we are right on that razor's edge. 
If we are funded less or we don't get relief from the 
deployments doing our Nation's business, then it will push past 
2023.
    Mr. Wittman. Gotcha. Thank you. I understand the world gets 
a vote in that too.
    Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    I have just a single question here for General Green.
    In your testimony, you mentioned several examples of 
leveraging partnerships with local communities to address 
infrastructure needs at the Air Force installations.
    Now, how are you determining priorities, deciding which 
projects are appropriate for funding through these partnerships 
and whether they are truly in the government's best interest to 
accept, operate, and maintain? Can you describe the controls 
that are in place so that the Air Force's requirements are 
being effectively met?
    General Green. Yes, ma'am. Thank you for that question.
    So who decides really depends on the level or the scope of 
the partnership with the community. So there are many 
agreements that the communities are able to make a partnership 
or have an agreement with the installation that they can 
execute at a local level, and so there would not be an Air 
Force enterprise look at that.
    In other cases, where there are legal authorities involved, 
we are evolving toward prioritizing those kinds of efforts as 
well. But, initially, as we began exploring this, our wing 
commanders really had a lot of flexibility to work with our 
staff so we could learn what the art of the possible was. And 
now that we have experienced that, we recognize we have a 
better understanding and we need to begin prioritizing because 
we have limited staff. And so I think you will see over the 
next few years we will begin prioritizing those efforts.
    One example would be, at Seymour Johnson Air Force Base in 
North Carolina, there is a partnership agreement that is being 
developed right now. I am not sure if it has been finally 
signed. But the community will use some installation land, some 
land that belongs to Seymour Johnson, and they will build a 
multi-field sports complex of eight fields, do different 
things.
    And so the community will get to use that the majority of 
the time, the installation will get to use it for their rec 
[recreation] leagues, their youth leagues, some fitness 
training in the mornings, and some weekend tournaments. But 
that is about a $6 million to $8 million investment that the 
community will make on Air Force property that the Air Force 
will then be able to take advantage of those services. So it is 
a real win-win.
    Other people are involved because it is an enhanced-use 
lease. There are authorities and agreements that have to be put 
in place. But as we get to those larger-scale agreements, I 
think we will begin prioritizing those that today we are not. 
Today, we are learning what the art of the possible is, and 
then we are going forward with the prioritization.
    Other agreements can be done locally. They can reach an 
agreement to have our medical personnel trained in the local 
emergency room and get some time down there. That does not 
require the Air Force to devote resources or identify all those 
requirements outside. So it just depends on the scope and the 
scale as to who will be making some of those decisions, ma'am.
    Ms. Bordallo. So, because of less funding now, are the 
partnership agreements--are there more now or less or----
    General Green. There is certainly a great deal of interest 
now. And so, at many of our wings, I would even say today 
probably most of our wings, there is an effort, there are 
groups that are working between the installation and the local 
community to identify those areas where we can have 
partnerships and then spread those around.
    So I believe it is the majority of our installations today 
that have a partnership program, and they are exploring those 
opportunities.
    Ms. Bordallo. In your opinion, General, would you say they 
are successful in most cases, or all cases, or----
    General Green. Yes, ma'am, I think they are successful, 
because the process today that we are asking the community and 
the wing leadership to go through is to define the art of the 
possible and understand our limits. And so we want to go in 
with a pretty big aperture to see and think, but before we 
reach those specific agreements, we want to make sure they are 
win-win.
    So I think by the time we are getting to the nuts and 
bolts, I think we really are having more win-win scenarios. 
And, again, they are not all big dollar, but I think we have 
more success than we have failures, because we will identify 
the obstacles along the way.
    Ms. Bordallo. And I feel it is good public relations when 
you are working with the community. I support this.
    So I want to thank you very much for your testimonies.
    And, Mr. Chairman, I yield back.
    Mr. Wittman. Thank you, Ms. Bordallo.
    And, General Green, General Harris, General Azzano, thank 
you so much for your testimony today, and we appreciate your 
perspective on this.
    This is very important as go into this year's National 
Defense Authorization Act [NDAA] to make sure that we address 
readiness from an infrastructure, installations, and facilities 
support perspective, because many times we get somewhat myopic 
in how we see the element of readiness. And we understand that, 
in order to generate readiness, you have to have that 
foundation to create that readiness. So to be able to get your 
perspective and make sure we reflect that in this year's NDAA 
is going to be very important.
    So, again, we thank you for your time today.
    And, with that, our subcommittee is adjourned.
    [Whereupon, at 10:03 a.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                            January 13, 2016

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 13, 2016

=======================================================================

      

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


      
    

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            January 13, 2016

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. SCOTT

    General Green. Commanders at Air Force depots have sufficient 
flexibility within the Working Capital Fund (WCF) to fund needed 
Facility Sustainment, Restoration, and Modernization (FSRM). However, 
requirements have increased significantly. One contributing factor is 
the difficulty to obtain needed current mission Military Construction 
(MILCON) funding as the Air Force has been forced to prioritize force 
readiness and modernization and take risks in installation support. 
Budgets for FSRM continue to rise as the facilities get older and the 
depots develop long range plans to provide flexible and responsive 
facilities. Increases in FSRM spending can increase the WCF rates and 
drive greater costs to the warfighter.   [See page 15.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            January 13, 2016

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. WITTMAN

    Mr. Wittman. To what extent do the reported readiness levels of 
installations take into consideration the condition of their 
facilities? Are there other metrics or data points used to assess the 
effect of facility condition on readiness?
    General Green. Installation and mission commanders report and track 
facility issues that affect mission readiness. This reporting ensures 
attention and appropriate resource prioritization to correct 
deficiencies. However, formal AF readiness metrics do not include 
facility condition as a measure. The primary metric used for facility 
condition, the Facility Condition Index, assesses the remaining service 
life of facilities, but not readiness impact. Faced with constrained 
resources and an environment where budget decisions involve picking the 
best of bad choices, we aim to make every dollar count by targeting 
limited installations resources toward requirements which have the 
highest consequence to the mission coupled with the highest probability 
of infrastructure failure.
    Mr. Wittman. How has the Air Force attempted to quantify the risks 
they are taking by perennially reducing their investments in base 
support services and infrastructure, if at all?
    General Green. The Air Force uses AFCOLS (Air Force Common Output 
Level Standards) as the system to determine levels of service such as 
law enforcement and physical security protection; fire and emergency 
services; installation food services and Morale, Welfare and Recreation 
and other Sub Activity Group Z funded services reported in the PB J-
Books. AFCOLS helps us understand risk, informs Commanders of the 
appropriate levels of service needed to support their mission, and 
provides a method from which to make resource decisions. For 
facilities, the Air Force plans to use Facility Condition assessments 
to assess risk and inform prioritization of funding; we are on track to 
meet OSD's Sep 2017 deadline for Facilities, Airfield Pavements, and 
Rail Systems; however, other Pavements and Utilities won't be done 
until Sep 2019.
    The Air Force prioritizes infrastructure and facility investment 
requirements based on risk within an asset management construct. The 
program evaluates facility investment requirements based on risk to 
mission and personnel by examining the probability and consequence of 
failure of an asset or system (e.g. facility, pavements, utility, etc.) 
Our methodology incorporates mission assurance criteria including a 
mission dependency index and Commander mission-criticality input. The 
prioritization process ensures the Air Force allocates resources to the 
right assets, at the right time, which reduces long-term deferred 
maintenance costs, allows limited resources to be applied to the 
highest mission priorities and retains visibility on deferred 
priorities for potential future funding. The Air Force continues to 
mature risk-based investment within a constrained resource environment, 
targeting mission assurance and posturing resilient installations.
    Mr. Wittman. Given consecutive years of funding below the targeted 
sustainment model and recapitalization requirements, how is funding 
prioritized in terms of which facility investments, both in terms of 
FSRM and MILCON, will be supported at a given installation? How have 
those decisions impacted military readiness and operation or training 
requirements?
    General Green. The Air Force (AF) creates an Integrated Priority 
List of facility requirements which begin by using scoring models for 
both the MILCON and O&M programs. The models capture Commanders' 
prioritization, combined with facility condition and mission dependency 
to focus the score on probability and consequence of failure. Air Force 
personnel then evaluate the lists using military judgement to make any 
final adjustments to what will be funded based upon our understanding 
of mission requirements. The AF treats many areas of BOS as a must pay 
bill and takes risk where it can with decreased levels of service; 
however, we expect an increase in FSRM costs over time due to reduced 
levels of service.
    The Air Force's Base Operations Support and Facilities Investment 
strategy is aligned with the Defense Strategic Guidance, as well as the 
OSD Fiscal Guidance. In spite of fiscal pressures, we requested, and 
Congress authorized and appropriated $2.9 billion in Facilities, 
Sustainment, Restoration and Modernization (FSRM), $1.6 billion in 
Military Construction (MILCON), and $6.1 billion in Base Operating 
Support (BOS) funding for FY 2016. This level of resourcing slowly buys 
down the $22.6 billion in backlogged maintenance, repair and 
recapitalization MILCON requirements exacerbated by Sequestration in 
2013, keeps Facilities Sustainment at 81 percent of projected needs in 
FY2016 and provides the minimum municipal-type services covered under 
BOS which is necessary to keep our installations running like the small 
cities they are.
    Mr. Wittman. What is the impact of funding sustainment, restoration 
and modernization and military construction below requirements over the 
long term? What level of investment and over what period of time do you 
think will be necessary to fully restore the readiness of our 
installations and facilities?
    General Green. When we defer recapitalization of existing 
facilities, we don't just delay the bill, we bring on increased 
maintenance and sustainment costs, until we eventually pay the deferred 
recapitalization bill--often at a higher cost. The delay increases 
costs in the long run. A return to investment at 2% of plant 
replacement value across the maintenance and repair portfolio, as 
baselined with leading industries, will over time stem the 
deterioration of infrastructure. The length of time to recover will 
depend upon how many years underfunding continues.
    Mr. Wittman. What impact has the substantial reduction in MILCON 
spending had on the ability of installations to support readiness and 
serve as power-projection platforms? How has significant new mission 
beddown requirements impacted ability to recapitalize existing mission 
facilities?
    General Green. The reduction in MILCON spending has forced the Air 
Force to prioritize and fund more mission critical projects, to include 
many new mission beddown projects, at the expense of projects with less 
immediate mission impact and support facilities. By prioritizing in 
this manner, there is less impact on readiness and power projection and 
more impact on quality of life and support facilities. The impact of 
large new mission programs has been to essentially replace current 
mission MILCON projects. When I think of the available funding for the 
MILCON program as a pie plate, the new mission pieces simply fill space 
on the pie plate that could have been used for current mission.
    The Air Force has experienced mission impacts when unexpected 
facility failures occurred during the period in which the Air Force 
accepted ``risk.'' For example, as the Air Force delayed recapitalizing 
the weapon storage and missile maintenance area at Malmstrom Air Force 
Base currently projected in the FY19 MILCON program, the impacts have 
been significant. In the last 5 years day-to-day Operations and 
Maintenance and labor costs have increased 280 percent and, due to 
security system inadequacies, an additional 3,000 man-hours of human 
surveillance are required annually. Recent flooding and fire 
suppression failures have also cancelled training and certification 
operations for six months. Consequently, munitions experts are expected 
to work extra shifts, likely contributing to a drop in retention from 
75 percent to 20 percent in the last 5 years. While engineers continued 
to implement Band-Aid fixes, the acceptance of risk toward 
infrastructure reached a tipping point, and the failing facility 
negatively affected nuclear mission readiness and resulted in tens of 
millions of dollars in repair costs in order to continue operations.
    Last year one of the choices the Air Force made was to request the 
Cape Canaveral Range Communications Facility that is critical to NRO, 
NASA and commercial launches on the Eastern Range and eliminates a 
single point of failure. The project was authorized and appropriated in 
the FY16 budget. Only time will tell if the new project is completed 
before a failure occurs such as we have experienced at the Minot Combat 
Arms Facility and the Malmstrom Missile Maintenance Facility.
    Mr. Wittman. Why has the Air Force slowed their implementation of 
Utilities Privatization efforts? Does the Air Force plan to continue 
the program on their remaining utility systems? If not, why?
    General Green. The Air Force slowed implementation of Utilities 
Privatization (UP) efforts as a result of the effects of constrained 
funding anticipated from the Budget Control Act and budget 
sequestration in FY13. Good-faith contracting practices required us to 
refrain from starting new UP solicitations until funding could be 
sourced and identified in specific appropriations. Our foresight proved 
correct; we would have been issuing new requests for proposal without 
sufficient resources to fund contracts. The Air Force plans to continue 
the program and steps have been taken to source and restore funding for 
the UP program across the FYDP. This will permit us ensure proper 
analysis of each project's business case and privatize each system 
where it makes sense to do so.
    Mr. Wittman. Are there any legislative gaps or impediments that 
hinder implementation of Utilities Privatization? Does the Air Force 
need specific funding authority for UP contracts or other changes in 
authorities to allow program implementation to be more efficient?
    General Green. As currently written, 10 USC Sec. 2688 provides 
useful tools for Utilities Privatization (UP). One area that could 
streamline and enhance Energy Resiliency efforts is inclusion of 
specific language that would authorize the military services to include 
the provision of renewable energy systems and facilities in new and 
existing utility services contracts, where mission appropriate. Current 
authorities for renewable energy projects do not enable the services to 
leverage potential efficiencies associated with obtaining renewable 
energy from an existing electric system owner located on an 
installation. The authority at 10 U.S.C. Sec. 2922a generally 
contemplates a separate contract for new facilities requiring Secretary 
of Defense approval. This authority is typically used to contract with 
third party renewable energy companies to construct free standing 
renewable energy production facilities both on and outside of 
installations. Significant efficiencies could be leveraged if the 
services could contract directly with the installation's privatized 
electric utility services provider, who already owns the electric 
generation and distribution facilities on the installation. Express 
provisions in Sec. 2688 for including renewable energy projects in UP 
contracts would significantly improve the military services' ability to 
seamlessly implement renewable energy within existing and newly awarded 
utility services contracts.
    The Air Force recommends and requests statutory authority within 10 
USC Sec. 2688 to allow the use of UP funds across fiscal years for the 
monthly Utility Services portion of the contract. Often the period of 
performance for UP contracts does not align with the fiscal year, and 
service contracts which are severable, may not cross fiscal years. 
Authority to use funds across FYs for UP contracts would help reduce or 
minimize contract modifications, quarterly spending authority 
constraints, and delays in system owners receiving funds for services.
    Mr. Wittman. How has the Air Force attempted to quantify the risks 
they are taking by perennially reducing their investments in base 
support services and infrastructure, if at all?
    General Harris. [No answer was available at the time of printing.]
    Mr. Wittman. Have reductions in civilian- or contract-provided 
services for utility system operations; installation equipment 
maintenance; engineering services including fire protection, crash 
rescue, custodial, refuse collection, snow removal, and lease of real 
property; security protection and law enforcement; and motor pool 
transportation operations impacted availability of facilities that 
support operations and training?
    General Harris. Yes, in many instances, reduced funding for 
government civilian and contract provided services have impacted 
facilities across the Air Force. Despite Air Force and installation 
commander efforts to mitigate impacts, reduced funding for these 
services has affected the availability of facilities that support 
operations and training.

Utility System Operations
    Reductions in contract provided utility systems support have 
impacted operations at Fairchild AFB. The reduction of civilians 
maintaining the utility systems and infrastructure, combined with the 
aging and weathering of facilities, have caused a multitude of issues 
including: ventilation leaks, roof leaks, and outdated electrical 
systems. This has resulted in a problem within the 1940s-era 
maintenance facility where a sand blast booth has become inoperable due 
to water leaks. Additionally, water leaking in an air handler above the 
Engine Shop has caused a whole work center to have to move to an 
alternate location.
    At Joint Base McGuire-Dix-Lakehurst, the base electrical system is 
still pole mounted with aging components. Funding cuts for craftsmen 
have slowed the initiatives to replace the aging infrastructure with 
newer and more resilient underground systems. In the last six months, 
there have been two significant outages affecting the area which 
supports the 108th National Guard. On one, an old transformer failed 
causing a major outage to the area, impacting a drill weekend. In the 
second, a pole failed supporting the same area causing a 4 hour power 
outage impacting training and requiring an 8 hour scheduled outage to 
complete the repairs.
    Lakehurst Naval Air Station, part of Joint Base McGuire-Dix-
Lakehurst, has the worst rated electrical system in Air Mobility 
Command. Some of the facilities, still used today, pre-date the 
Hindenburg which crashed at Lakehurst on 6 May 1937. The main lighter-
than-air hangar is still used today and is a Historical Facility. 
However, some of the infrastructure systems are just as old. Current 
electric shop staffing and funding is insufficient to maintain the old 
system. There are routinely major power outages across Lakehurst due to 
the age of the main substation, switchgear, and feeder lines. The 
impacts on the R&D mission at NAVAIR, and the retrofit of carrier 
launch systems, are significant when power goes out. One recent example 
was in August 2015, when a damaged feeder switch caused a power outage 
for a few days, resulting in a day-for-day slip for the electro-
magnetic catapult and advanced arresting system test schedule.

Installation Equipment Maintenance Engineering Services
    Also at Joint Base McGuire-Dix-Lakehurst, the Army CERDEC is using 
an old hangar from 1941. They have over $1.2B worth of assets in the 
hangar. Reductions in contracted maintenance have resulted in the 
hangar doors sagging and jamming. The south end is locked closed and 
recently the north end failed. Other facility maintenance issues have 
required that overhead netting be installed to prevent falling pieces 
of ceiling from damaging the aircraft and injuring people.

Fire Protection and Crash Rescue
    Hurlburt Field lost one fire truck mechanic and one heavy-duty 
mechanic position in 2013, which contributed to a loss of operations 
capacity. These personnel provided operations continuity for special 
purpose vehicles, training to new Airmen, and steady production levels 
at home station during active duty military deployments. The non-
availability of special purpose vehicle mechanics has impacted the 
capability to perform recurring maintenance and repairs contributing to 
a work order backlog and extending the time and cost to complete in-
service projects.

Snow Removal
    At Fairchild AFB, reductions in contract services for street and 
parking lot snow removal have slowed to focus on airfield support. 
Where there were once 3 to 4 operators working to keep base streets 
plowed, budget cuts now only allow for 1 or 2 operators. This has 
directly affected first responder response time to reported emergencies 
and has affected Alert Crew response from various base locations when 
trying to get back to aircraft upon being alerted. Budget cuts now only 
allow for the contractor to be called out in the event of snowfalls of 
2 inches or greater. This means that any snowfall less than 2 inches is 
the responsibility of in-house forces. Time spent for snow removal 
detracts from performing operations and training.
    Mr. Wittman. What is the impact of funding sustainment, restoration 
and modernization and military construction below requirements over the 
long term? What level of investment and over what period of time do you 
think will be necessary to fully restore the readiness of our 
installations and facilities?
    General Harris. When we defer recapitalization of existing 
facilities, we don't just delay the bill, we bring on increased 
maintenance and sustainment costs, until we eventually pay the deferred 
recapitalization bill--often at a higher cost. The delay increases 
costs in the long run. A return to investment at 2% of plant 
replacement value across the maintenance and repair portfolio, as 
baselined with leading industries, will over time stem the 
deterioration of infrastructure. The length of time to recover will 
depend upon how many years underfunding continues.
    Mr. Wittman. Have reductions in civilian- or contract-provided 
services for utility system operations; installation equipment 
maintenance; engineering services including fire protection, crash 
rescue, custodial, refuse collection, snow removal, and lease of real 
property; security protection and law enforcement; and motor pool 
transportation operations impacted availability of facilities that 
support operations and training?
    General Azzano. Yes, in many instances, reduced funding for 
government civilian and contract provided services have impacted 
facilities across the Air Force. Despite Air Force and installation 
commander efforts to mitigate impacts, reduced funding for these 
services has affected the availability of facilities that support 
operations and training.

Utility System Operations
    Reductions in contract provided utility systems support have 
impacted operations at Fairchild AFB. The reduction of civilians 
maintaining the utility systems and infrastructure, combined with the 
aging and weathering of facilities, have caused a multitude of issues 
including: ventilation leaks, roof leaks, and outdated electrical 
systems. This has resulted in a problem within the 1940s-era 
maintenance facility where a sand blast booth has become inoperable due 
to water leaks. Additionally, water leaking in an air handler above the 
Engine Shop has caused a whole work center to have to move to an 
alternate location.
    At Joint Base McGuire-Dix-Lakehurst, the base electrical system is 
still pole mounted with aging components. Funding cuts for craftsmen 
have slowed the initiatives to replace the aging infrastructure with 
newer and more resilient underground systems. In the last six months, 
there have been two significant outages affecting the area which 
supports the 108th National Guard. On one, an old transformer failed 
causing a major outage to the area, impacting a drill weekend. In the 
second, a pole failed supporting the same area causing a 4 hour power 
outage impacting training and requiring an 8 hour scheduled outage to 
complete the repairs.
    Lakehurst Naval Air Station, part of Joint Base McGuire-Dix-
Lakehurst, has the worst rated electrical system in Air Mobility 
Command. Some of the facilities, still used today, pre-date the 
Hindenburg which crashed at Lakehurst on 6 May 1937. The main lighter-
than-air hangar is still used today and is a Historical Facility. 
However, some of the infrastructure systems are just as old. Current 
electric shop staffing and funding is insufficient to maintain the old 
system. There are routinely major power outages across Lakehurst due to 
the age of the main substation, switchgear, and feeder lines. The 
impacts on the R&D mission at NAVAIR, and the retrofit of carrier 
launch systems, are significant when power goes out. One recent example 
was in August 2015, when a damaged feeder switch caused a power outage 
for a few days, resulting in a day-for-day slip for the electro-
magnetic catapult and advanced arresting system test schedule.

Installation Equipment Maintenance Engineering Services
    Also at Joint Base McGuire-Dix-Lakehurst, the Army CERDEC is using 
an old hangar from 1941. They have over $1.2B worth of assets in the 
hangar. Reductions in contracted maintenance have resulted in the 
hangar doors sagging and jamming. The south end is locked closed and 
recently the north end failed. Other facility maintenance issues have 
required that overhead netting be installed to prevent falling pieces 
of ceiling from damaging the aircraft and injuring people.

Fire Protection and Crash Rescue
    Hurlburt Field lost one fire truck mechanic and one heavy-duty 
mechanic position in 2013, which contributed to a loss of operations 
capacity. These personnel provided operations continuity for special 
purpose vehicles, training to new Airmen, and steady production levels 
at home station during active duty military deployments. The non-
availability of special purpose vehicle mechanics has impacted the 
capability to perform recurring maintenance and repairs contributing to 
a work order backlog and extending the time and cost to complete in-
service projects.

Snow Removal
    At Fairchild AFB, reductions in contract services for street and 
parking lot snow removal have slowed to focus on airfield support. 
Where there were once 3 to 4 operators working to keep base streets 
plowed, budget cuts now only allow for 1 or 2 operators. This has 
directly affected first responder response time to reported emergencies 
and has affected Alert Crew response from various base locations when 
trying to get back to aircraft upon being alerted. Budget cuts now only 
allow for the contractor to be called out in the event of snowfalls of 
2 inches or greater. This means that any snowfall less than 2 inches is 
the responsibility of in-house forces. Time spent for snow removal 
detracts from performing operations and training.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. How are you ensuring that there is effective 
oversight of local community partnerships which extend beyond 
utilities, housing, food, and other general services, that these 
partnerships are in the government's best interest, and that Air Force 
requirements are being effectively met?
    General Green. In the ``make every dollar count,'' campaign the Air 
Force has put a concentrated effort to cultivate partnerships between 
our installations and the local communities. Subject matter experts 
(e.g., legal, contracting, financial management) at the installation, 
Air Force Installation and Mission Support Center, and Headquarter Air 
Force levels are actively involved in partnership initiative 
development and implementation. Additionally, Headquarters Air Force 
has established an Executive Steering Group (ESG) comprised of cross-
functional Air Force senior leaders to review and provide unified 
direction, guidance, and leadership to efficiently and effectively 
manage the overall Air Force Community Partnership (AFCP) program and 
appropriate initiatives. The ESG leverages the knowledge and expertise 
of its cross-functional membership to develop/modify AFCP policy and to 
make informed and sound decisions on large, Air Force-wide initiatives 
or individual initiatives that may have implications beyond a single 
installation. The ESG ensures partnerships are in the government's best 
interest and that Air Force requirements are being met.
    Ms. Bordallo. In your testimony you referred to not just primary 
impacts, but also second and third degree effects on readiness of 
reduced infrastructure investment, especially in Base Operations 
Support. Could you provide several notable examples and their resource 
costs, financial as well as time and manpower?
    General Green. Reduced infrastructure investment has tangible 
impacts on installation readiness and Base Operations Support, despite 
Air Force and installation commander's best efforts to mitigate 
impacts. Some notable examples include:
    For example, the Non Commissioned Officer (NCO) Academy at Keesler 
AFB, where we prepare NCOs to assume increased front line leadership 
responsibilities, continually experiences flooding from water line 
breaks, power outages, and mold growth from a failing heating and air 
conditioning system. In the last year the facility, which was 
constructed in 1941, was closed 3 times for a total of 2.5 months, 
which impacted 175 students and required 2,800 man-hours to complete 
restoration activities. These closures hamper NCO training and 
education and directly impact NCOs growth as leaders in every 
organization supported by the school, including aircraft maintainers 
responsible for sortie generation.
    At Laughlin AFB, the 1953 vintage airfield storm drainage system 
has exceeded its useful life and no longer performs as needed. Heavy 
storms flood the airfield several times a year, terminating pilot 
training for up to 3 days until flood waters recede. Each flood event 
typically results in the loss of 375 sorties directly impacting pilot 
training, which in turn can impact overall course length.
    Another example of failing storm drainage infrastructure is at 
Keesler AFB, where the piping and manholes were installed in the 1940s. 
The system has exceeded its 50 year life expectancy by 25 years and no 
longer provides adequate drainage. At Keesler we find areas of rapid 
erosion, surface damage and sinkholes and our deferred maintenance 
increased repair costs 40%. Personnel monitor 60 sinkholes each week, 
spending 800 manhours and over $56K per year on the effort. Phase I to 
repair the drainage system was awarded in FY15 for $3.9M, but phase 2 
fell below the funding line in FY16 and is competing again in FY17.

                                  <all>
</pre></body></html>
